ROBBINS I RUSSELL
Robbins, Russell, Engle rt, Orseck, Untereiner & Sauber LL P

202.775.4503

Roy T. Englert, Jr.

reng lert@robbinsrussell .com

September 9, 2019

Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N .E.
Washington, D.C. 20543
Re:

HSBC Holdings PLC v. Picard, No. 19-277

Dear Mr. Harris:
I am counsel of record for respondent Irving H. Picard, trustee for the estate of Bernard L.
Madoff Investment Securities LLC under the Securities Investor Protection Act, 15 U.S.C . §§
78aaa et seq., and the substantively consolidated estate of Bernard L. Madoff. Under the Securities
Investor Protection Act, the Securities Investor Protection Corporation (SIPC) "shall be deemed
to have intervened" in thi s action. Id. § 78eee( d) . SIPC is therefore also a respondent and joins in
this request.
The petition for a writ of certiorari in this action was filed on August 29, 2019, and
docketed on August 30, 2019. Responses currently are due on September 30, 2019. I respectfully
request, under Rul e 30.4 of the Rules of this Court, a 30-day extension of time, to and including
October 30, 2019, within which to respond to the petition. I respectfully request that the extension
apply to all respondents.
This extension is necessary so that the responses may take into account any amicus briefs
in support of petitioners. Picard has been advised under Rule 37.2(a) that at least one such brief
will be filed.
a
Respect~
i
s;3;:ted

l . r:-t: 'T' -

y T. Englert, Jr.
cc:

Thomas J. Moloney, Esq. (by email)
Kevin H. Bell, Esq. (by email)
2000 K Street, NW I 4th Floor I Washington, DC 20006
P 202.775.4500 I F 202.775.4510
www.robbinsrussell.com

